Audit Report




OIG-08-038
ACCESSIBILITY OF FINANCIAL SERVICES: OCC Is Appropriately
Using HMDA Data in its Risk Assessment Process to Identify
Possible Discriminatory Lending Practices

July 21, 2008




Office of
Inspector General
Department of the Treasury
Contents

Audit Report.................................................................................................. 1

    Background ................................................................................................. 2

    Findings and Recommendation ....................................................................... 3

        OCC Made Appropriate Use of HMDA Data................................................. 3

        OCC Took Appropriate Follow-up Action .................................................... 5

        OCC’s Documentation of Its Internal Operating Procedures Is
        in Draft Form Only ................................................................................... 6

        Recommendation ..................................................................................... 6


Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................... 9
    Appendix     2:      Management Response ........................................................ 10
    Appendix     3:      Major Contributors to This Report .......................................... 12
    Appendix     4:      Report Distribution.................................................................13


Abbreviations

    FRB                  Federal Reserve Board
    HMDA                 Home Mortgage Disclosure Act
    HUD                  Department of Housing and Urban Development
    OCC                  Office of the Comptroller of the Currency
    OIG                  Office of Inspector General
    WSRC                 Washington Supervisory Review Committee




                         OCC Is Appropriately Using HMDA Data in its Risk Assessment Process                Page i
                         to Identify Possible Discriminatory Lending Practices (OIG-08-038)
         This page intentionally left blank.




OCC Is Appropriately Using HMDA Data in its Risk Assessment Process   Page ii
to Identify Possible Discriminatory Lending Practices (OIG-08-038)
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General




                       July 21, 2008

                       John C. Dugan
                       Comptroller of the Currency

                       This report presents the results of an audit we conducted at the
                       Office of the Comptroller of the Currency (OCC)1 concerning the
                       use of Home Mortgage Disclosure Act (HMDA)2 data by OCC.

                       The objectives of this audit were to determine whether (1) OCC is
                       making appropriate use of HMDA data in its risk assessment
                       process to identify instances of possible discriminatory lending
                       practices and (2) OCC is taking appropriate action to follow up on
                       identified instances of possible discriminatory lending practices.

                       We conducted our audit from May 2007 through September 2007.
                       We met with officials of the OCC and other federal banking
                       regulators. We also reviewed relevant OCC documentation. As part
                       of the audit, we did not assess the adequacy of the fair lending
                       examination. Appendix 1 contains a more detailed description of
                       our objectives, scope, and methodology.




1
  OCC charters, regulates, and supervises all national banks. It also supervises the federal branches and
agencies of foreign banks.
2
  Pub. L. No. 94-200; 89 Stat. 1125 (Dec. 31, 1975), amended by Pub. L. No. 100-242; 101 Stat.
1945 (Feb. 5, 1988) and Pub. L. No. 101-73; 103 Stat. 525 (Aug. 9, 1989]. Codified at 12 USC §.
2802.

                       OCC Is Appropriately Using HMDA Data in its Risk Assessment Process         Page 1
                       to Identify Possible Discriminatory Lending Practices (OIG-08-038)
             In brief, based on our review, we found that OCC made appropriate
             use of HMDA data to identify instances of possible discriminatory
             lending practices and that OCC took appropriate action to follow up
             on these identified instances. We also found that although OCC
             has documented its internal operating procedures for the use of
             HMDA data, the document is in draft form only. We recommend
             that OCC finalize this document.

             In a written response, the Comptroller of the Currency concurred
             with our findings and recommendation. Expressing concern that
             readers of our report may misunderstand the purpose and use of
             the document at issue, the Comptroller also discussed OCC’s fair
             lending supervisory activities over the years. The response is
             included as appendix 2.


Background
             OCC is responsible for fostering safety and soundness of the
             national banking system and for monitoring and enforcing national
             banks’ compliance with laws and regulations. OCC considers
             HMDA data to determine whether additional review is needed as
             part of its examination process to determine banks’ compliance
             with such statutes as the Community Reinvestment Act, the Equal
             Credit Opportunity Act, and the Fair Housing Act.

             HMDA requires certain mortgage lenders to collect selected data on
             mortgage applications, originations, and purchases and to report
             these data to federal banking regulators each year. For the HMDA
             data collection and reporting requirement to apply, a bank, savings
             association, or credit union must have had assets on the preceding
             December 31 that exceeded a specified annually published amount;
             had a home or branch office in a Metropolitan Statistical Area on
             the preceding December 31; and originated at least one first-lien
             home purchase loan (or a refinancing of such a loan) on a one- to
             four-family dwelling in the preceding calendar year. In addition, for
             the requirement to apply, the institution must (1) be federally
             insured or regulated; or (2) have originated at least one first-lien
             home purchase loan or refinancing on a one- to four-family dwelling
             that was federally guaranteed, insured, or supplemented; or
             (3) have intended to sell the loan to Fannie Mae or Freddie Mac.


             OCC Is Appropriately Using HMDA Data in its Risk Assessment Process   Page 2
             to Identify Possible Discriminatory Lending Practices (OIG-08-038)
                       As an observation, HMDA data consist of certain borrower
                       characteristics and certain loan characteristics. One of HMDA’s
                       purposes is to help regulators identify possible discriminatory
                       lending patterns and enforce antidiscrimination statutes. HMDA
                       data in past years have indicated disparities in mortgage lending by
                       race and ethnicity, but HMDA data alone are generally considered
                       insufficient to determine whether a lender is complying with fair
                       lending laws because the data do not include potential key
                       determinants of loan pricing, such as borrowers’ credit scores,
                       debt-to-income ratios, or loan-to-value ratios. Whether additional
                       data, such as credit scores, should be added to HMDA reporting
                       requirements has been the subject of ongoing debate in
                       Congressional hearings. Consumer interest groups have advocated
                       for the addition of such data because they believe that the
                       additional information would allow federal banking regulators to
                       increase Fair Lending enforcement and increase scrutiny of
                       discriminatory practices. In the same hearings, federal banking
                       regulators have questioned whether the cost of adding data would
                       outweigh the benefits and whether it would yield a definite answer
                       on the occurrence of discrimination.


Findings and Recommendation

Finding 1              OCC Made Appropriate Use of HMDA Data

                       Based on our review, we concluded that OCC used HMDA data as
                       the law intended—to identify possible discriminatory lending
                       patterns. OCC provided us with a draft copy of its internal policies
                       and procedures related to HMDA data analysis. From this and other
                       evidence we determined that OCC (1) runs HMDA data through
                       several screens to identify outliers, (2) prepares a preliminary
                       screening list that is reviewed by OCC’s Deputy Comptrollers in
                       charge of bank supervision,3 and (3) prepares a final screening list
                       and schedules Fair Lending examinations for all institutions included
                       on the final screening list.



3
  OCC has eight Deputy Comptrollers who are responsible for its bank supervision activities—three for
large bank supervision; one for mid-size and credit card bank supervision; and one for each OCC district
(Central, Northeastern, Southern and Western).

                       OCC Is Appropriately Using HMDA Data in its Risk Assessment Process        Page 3
                       to Identify Possible Discriminatory Lending Practices (OIG-08-038)
                       OCC, as the regulator of national banks, receives HMDA data
                       relating to these banks annually from the Federal Reserve Board
                       (FRB) and an FRB Output Report, which identifies national banks
                       that may represent high fair lending risk due to greater rate spread4
                       disparities.

                       After receiving HMDA data, OCC generates three risked-based
                       screening lists of banks that are outliers in the areas of denial rate,
                       terms and conditions, and rate spread. OCC also considers the
                       results of public surveys and discrimination analyses prepared by
                       others to identify outliers related to redlining and marketing.

                       OCC also compiles two screening lists that consist of randomly
                       selected banks. The banks on these two lists are selected from all
                       OCC-supervised banks that were not identified on the risk-based
                       screening lists.

                       OCC compiles a preliminary screening list consisting of banks
                       identified as outliers and the randomly selected banks. OCC’s
                       supervisory offices review this list and recommend banks to be
                       added or deleted. Examiners must give a risk-based reason for
                       deleting a bank from the list. After the supervisory offices have
                       provided their input, OCC prepares a final screening list. Banks on
                       the final list are scheduled for a Fair Lending examination during
                       the next calendar year.

                       During its screening process, OCC filters out loan applications with
                       certain characteristics. For example, loans in which the applicant
                       listed multiple races and loans in which the applicant and
                       coapplicant were of different races were screened out and not
                       subjected to additional HMDA-related scrutiny during the screening
                       process. The number of applications filtered out for these two
                       reasons is less than 2 percent of the loan application population
                       after other filters have been applied. OCC said that it decided to
                       exclude these applications because it was unclear how to interpret
                       the results applied to these groups and because this population
                       was reasonably small. OCC informed us that it monitors

4
  Rate spread is the difference between the annual percentage rate on a loan and the rate on Treasury
securities of comparable maturity. Lenders must report the spread for loans with an annual percentage
rate 3 percent higher than the comparable Treasury securities for first liens and 5 percent higher for
junior liens.

                       OCC Is Appropriately Using HMDA Data in its Risk Assessment Process       Page 4
                       to Identify Possible Discriminatory Lending Practices (OIG-08-038)
                        demographic shifts and would change its screening process as
                        needed.

                        All federal banking regulators receive HMDA data from FRB related
                        to the institutions they regulate and use these data to screen for
                        potential high-risk institutions that may warrant additional review.
                        We interviewed personnel from FRB, the Office of Thrift
                        Supervision, the National Credit Union Administration, and the
                        Federal Deposit Insurance Corporation and found that they have
                        HMDA data analysis processes in place that are generally similar to
                        those used by OCC.

Finding 2               OCC Took Appropriate Follow-up Action

                        OCC provided us with documentary evidence to demonstrate its
                        efforts to use HMDA data to address possible discriminatory
                        lending practices. Based on this evidence, we found that OCC took
                        appropriate action to follow up on HMDA data that indicates
                        potential discrimination in lending. Specifically, we found that OCC
                        schedules and conducts Fair Lending examinations for all banks on
                        the final screening list.

                        All potential prohibited basis5 violations of the Fair Housing Act or
                        Equal Credit Opportunity Act identified in Fair Lending examinations
                        are brought to the attention of OCC’s Washington Supervisory
                        Review Committee (WSRC). WSRC recommends specific OCC
                        enforcement action, as appropriate. WSRC makes
                        recommendations to the appropriate Senior Deputy Comptroller for
                        Bank Supervision on whether a referral to the Department of
                        Justice or to the Department of Housing and Urban Development
                        (HUD) should be made.

                        Cases where OCC has concluded that there is reason to believe
                        discrimination has occurred are referred to the appropriate
                        enforcement agency. Since April 1993, OCC has referred 38
                        national banks deemed to be in violation of fair lending laws to the
                        Department of Justice and/or HUD. Most cases were returned to
5
 “Prohibited basis” under the Equal Credit Opportunity Act refers to discrimination against otherwise
creditworthy applicants on the basis of race, color, religion, national origin, sex, marital status, age or
because an applicant receives income from a public assistance program. Under the Fair Housing Act,
“prohibited basis” also refers to discrimination on the basis of familial status (presence of child under
age of 18, and pregnant women) and handicap.

                        OCC Is Appropriately Using HMDA Data in its Risk Assessment Process            Page 5
                        to Identify Possible Discriminatory Lending Practices (OIG-08-038)
                      OCC to resolve administratively. Five cases were resolved through
                      consent orders or settlement agreements entered into between
                      DOJ and the bank and one case was resolved by HUD.

Finding 3             OCC’s Documentation of Its Internal Operating
                      Procedures Is in Draft Form Only

                      OCC began to develop internal written operating procedures for
                      using HMDA data in January 2007. According to OCC managers,
                      finalized internal written operating procedures were to have been in
                      place by the end of summer 2007. To date, however, OCC has not
                      finalized this document that describes its fair lending supervision
                      process The written description of such procedures represent an
                      important internal control, defined in the Government
                      Accountability Office’s Standards for Internal Control in the Federal
                      Government as the plans, methods, and procedures used to meet
                      mission, goals, and objectives. Further, internal controls should be
                      clearly documented and the documentation should be readily
                      available for examination.6 Without a finalized, internal document
                      reflecting internal operating procedures, lapses in the continued and
                      consistent use of HMDA data could occur.

Recommendation

                      To help ensure that national banks and their operating subsidiaries
                      comply with fair lending laws and regulations, we recommend that
                      the Comptroller of the Currency finalize OCC’s internal written
                      operating procedures for the use of HMDA data. We also
                      recommend that the written procedures address OCC’s plans to
                      monitor demographic shifts and to adjust the screening process as
                      necessary.

                      Management Response

                      OCC agreed with the recommendation and plans to finalize the
                      document reflecting its internal written operating procedures. The
                      target implementation date for this action is September 30, 2008.



6
 Government Accountability Office, Standards for Internal Control in the Federal Government,
GAO/AMD-00-21.3.1 (November 1999).

                      OCC Is Appropriately Using HMDA Data in its Risk Assessment Process      Page 6
                      to Identify Possible Discriminatory Lending Practices (OIG-08-038)
OCC, however, expressed concern that readers of this report may
misunderstand the purpose and use of the document at issue or
conclude that without the document or absent its finalization, that
OCC is not fully integrating HMDA data into its supervision of
national banks. In its response, OCC states that it: (1) has been
supervising national banks for compliance with fair lending laws for
many years; (2) began to make use of HMDA data as soon as data
regarding borrower characteristics became available; (3) issued
bulletins and other publications to national banks providing both
general, comprehensive guidance, including the use of HMDA data
in supervision, for addressing fair lending concerns and specific
guidance to address particular risk areas or emerging issues;
(4) updated its latest set of comprehensive examination
procedures, which are based on interagency procedures developed
by the federal banking agencies and provide guidance to examiners
and institutions in 2006; and (5) has employed an annual screening
process to help identify institutions that may warrant closer
examination scrutiny for possible lending discrimination since
2000.

OCC also stated that it began to commit its internal processes for
handling the data, including the screens and filters, to writing as a
“white paper” and intend it to be a living document for internal use
only.

OIG Comment

We believe the planned corrective action is responsive to our
recommendation. We recognize that: OCC has integrated HMDA
data into its supervision of national banks for many years; and the
internal written operating procedures for the use of HMDA data are
intended for internal use only.




OCC Is Appropriately Using HMDA Data in its Risk Assessment Process   Page 7
to Identify Possible Discriminatory Lending Practices (OIG-08-038)
                              * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-5776 or Jeff Dye, Audit Manager, at
(202) 927-0384. Major contributors to this report are listed in
appendix 3.




Susan L. Barron
Director of Banking Audits




OCC Is Appropriately Using HMDA Data in its Risk Assessment Process   Page 8
to Identify Possible Discriminatory Lending Practices (OIG-08-038)
Appendix 1
Objectives, Scope, and Methodology




Our objectives were to determine whether (1) OCC is making
appropriate use of HMDA data in its risk assessment process to
identify instances of possible discriminatory lending practices and
(2) OCC is taking appropriate action to follow up on identified
instances of possible discriminatory lending practices. As part of
the audit, we did not assess the adequacy of the fair lending
examination.

To accomplish these objectives, we performed the following
activities:

•   Conducted interviews with OCC officials
•   Conducted interviews with other federal banking regulators
•   Reviewed OCC policies and procedures on its use of HMDA
    data
•   Reviewed OCC documents related to past HMDA data analysis
•   Reviewed laws and regulations relevant to discriminatory
    lending practices
•   Reviewed OCC guidance on examinations
•   Reviewed OCC testimony to the House Committee on Financial
    Services

We performed our audit from May 2007 through September 2007
in accordance with generally accepted government auditing
standards.




OCC Is Appropriately Using HMDA Data in its Risk Assessment Process   Page 9
to Identify Possible Discriminatory Lending Practices (OIG-08-038)
Appendix 2
Management Response




OCC Is Appropriately Using HMDA Data in its Risk Assessment Process   Page 10
to Identify Possible Discriminatory Lending Practices (OIG-08-038)
Appendix 2
Management Response




OCC Is Appropriately Using HMDA Data in its Risk Assessment Process   Page 11
to Identify Possible Discriminatory Lending Practices (OIG-08-038)
Appendix 3
Major Contributors To This Report




Susan Barron, Director, Banking Audits
Jeffrey Dye, Audit Manager
Gregory Quantz, Program Analyst
Amnoiphorn Samson, Program Analyst




OCC Is Appropriately Using HMDA Data in its Risk Assessment Process   Page 12
to Identify Possible Discriminatory Lending Practices (OIG-08-038)
Appendix 4
Report Distribution




Department of the Treasury

    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner




OCC Is Appropriately Using HMDA Data in its Risk Assessment Process   Page 13
to Identify Possible Discriminatory Lending Practices (OIG-08-038)
